Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    FOLLOW-UP AUDIT OF THE 

    MEDICAID DRUG REBATE 

   PROGRAM IN RHODE ISLAND





                    Daniel R. Levinson

                     Inspector General 


                       March 2009

                      A-01-08-00009

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the
Social Security Act. For a manufacturer’s covered outpatient drugs to be eligible for Federal
Medicaid funding under the program, the manufacturer must enter into a rebate agreement with
the Centers for Medicare & Medicaid Services (CMS) and pay quarterly rebates to the States.
CMS, the States, and drug manufacturers each undertake certain functions in connection with the
drug rebate program. In Rhode Island, the Department of Human Services (the State agency)
administers the Medicaid drug rebate program.

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in 49
States and the District of Columbia (A-06-03-00048). Those audits found that only four States
had no weaknesses in accountability for and internal controls over their drug rebate programs.
As a result of the weaknesses, we concluded that States lacked adequate assurance that all of the
drug rebates due to the States were properly recorded and collected. Additionally, CMS did not
have reliable information from the States to properly monitor the drug rebate program.

In our previous audit of the Rhode Island drug rebate program (A-01-03-00001), we determined
that the State agency’s controls were generally in place to record and track the collection of drug
rebates. In addition, the Federal share of drug rebate amounts was properly offset from Federal
Medicaid reimbursement. However, the total uncollected drug rebate amount reported on the
Form CMS-64.9R for the quarter that ended June 30, 2002, (1) was overstated by $4.7 million
because this amount was not supported by the State agency’s records and (2) contained
approximately $570,000 in uncollected disputed items for the period January 1994 through
December 2001 that the State agency had not resolved. In addition, the State agency had not
established written procedures for reporting its pending drug rebate amounts on the Form CMS-
64.9R report. We recommended that the State agency (1) reconcile the State records to the
amount reported on the CMS-64.9R and make a summary adjustment to account for the
overstated amount, (2) resolve disputed items either through the CMS hearing mechanism or the
National Dispute Resolution conference, and (3) establish written procedures for recording drug
rebate transactions.

The State agency agreed with our findings and recommendations.

This current review of Rhode Island is part of a nationwide series of reviews conducted to
determine whether States have addressed the weaknesses found in the previous reviews in
accountability for and internal controls over their drug rebate programs. Additionally, because
the Deficit Reduction Act of 2005 required States as of January 2006 to begin collecting rebates
on single source drugs administered by physicians, this series of reviews will also determine
whether States have complied with the new requirement.




                                                 i
OBJECTIVES

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the Rhode Island drug rebate program
and (2) established controls over collecting rebates on single source drugs administered
by physicians.

SUMMARY OF FINDING

The State agency had adjusted its CMS-64.9R by $4.7 million and resolved nearly all
outstanding disputed amounts for the period 1994 through 2001. However, the State agency had
not fully implemented the recommendation from our prior audit to establish written procedures
for recording drug rebate transactions.

Regarding the second objective, the State agency had established controls over collecting rebates
on single source drugs administered by physicians.

RECOMMENDATION

We reiterate our recommendation that the State agency establish written procedures for recording
drug rebate transactions.

DEPARTMENT OF HUMAN SERVICES COMMENTS

In written comments on our draft report, the State agency agreed with our recommendation.

The State agency’s comments are included in their entirety as the Appendix.




                                                ii
                                                 TABLE OF CONTENTS 


                                                                                                                           Page


INTRODUCTION................................................................................................................1 


          BACKGROUND .......................................................................................................1        

                Drug Rebate Program ..............................................................................1 

                Physician-Administered Drugs ................................................................1 

                Prior Office of Inspector General Reports ...............................................2 

                Rhode Island Drug Rebate Program ........................................................2 


          OBJECTIVES, SCOPE, AND METHODOLOGY...................................................3 

                  Objectives ................................................................................................3 

                  Scope........................................................................................................3 

                  Methodology ............................................................................................3 


FINDING AND RECOMMENDATION...........................................................................4


               IMPLEMENTATION OF PRIOR RECOMMENDATIONS .............................4 


               PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS ..........................5 


               RECOMMENDATION .......................................................................................5 


               DEPARTMENT OF HUMAN SERVICES COMMENTS.................................5 


APPENDIX

               DEPARTMENT OF HUMAN SERVICES COMMENTS




                                                                  iii
                                             INTRODUCTION 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Drug Rebate Program

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the Act.
For a manufacturer’s covered outpatient drugs to be eligible for Federal Medicaid funding under
the program, the manufacturer must enter into a rebate agreement with CMS and pay quarterly
rebates to the States. CMS, the States, and drug manufacturers each undertake certain functions
in connection with the drug rebate program. In Rhode Island, the Department of Human
Services (the State agency) is responsible for the drug rebate program.

Pursuant to section II of the rebate agreement and section 1927(b) of the Act, manufacturers are
required to submit a list to CMS of all covered outpatient drugs and to report each drug’s average
manufacturer price and, where applicable, best price. Based on this information, CMS calculates
a unit rebate amount for each covered outpatient drug and provides the amounts to States
quarterly.

Section 1927(b)(2)(A) of the Act requires States to maintain drug utilization data that identify,
by National Drug Code (NDC), the number of units of each covered outpatient drug for which
the States reimbursed providers. The number of units is applied to the unit rebate amount to
determine the actual rebate amount due from each manufacturer. Section 1927(b)(2) of the Act
requires States to provide the drug utilization data to CMS and the manufacturer. States also
report drug rebate accounts receivable data on Form CMS-64.9R. This form is part of Form
CMS-64, “Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,”
which summarizes actual Medicaid expenditures for each quarter and is used by CMS to
reimburse States for the Federal share of Medicaid expenditures.

Physician-Administered Drugs

Section 6002(a) of the Deficit Reduction Act of 2005 (DRA) amends section 1927 of the Act and
requires States, as of January 1, 2006, to collect and submit utilization data for single source
drugs administered by physicians so that States may obtain rebates for the drugs. 1 Single source
drugs are commonly referred to as “brand name drugs” and do not have generic equivalents.


1
 This provision of the DRA expands the requirements to certain multiple source drugs administered by physicians
after January 1, 2008.
In Rhode Island, physician-administered drugs are billed to the State Medicaid program on a
physician claim form. The State agency uses the Form CMS-1500 as the physician claim form.
The physician claim form uses the procedure codes that are part of the Healthcare Common
Procedure Coding (HCPC) system instead of the NDC. The HCPC procedure code identifies a
drug by its active ingredient(s) and identifies the number of drug units (billing units) allowed per
reimbursement for that procedure code. Rebates are calculated and paid based on NDCs. In
addition, the billing units for a procedure code may differ from the units used for rebate purposes
(e.g., grams versus liters). Therefore, to determine rebates, procedure codes must be converted
to NDCs for single source drugs, and procedure code billing units must be converted into
equivalent NDC billing units.

Prior Office of Inspector General Reports

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in 49
States and the District of Columbia. 2 Those audits found that only four States had no
weaknesses in accountability for and internal controls over their drug rebate programs. As a
result of the weaknesses, we concluded that States lacked adequate assurance that all of the drug
rebates due to the States were properly recorded and collected. Additionally, CMS did not have
reliable information from the States to properly monitor the drug rebate program.

In our previous audit of the Rhode Island drug rebate program (A-01-03-00001), we determined
that the State agency’s controls were generally in place to record and track the collection of drug
rebates. In addition, the Federal share of drug rebate amounts was properly offset from Federal
Medicaid reimbursement. However, the total uncollected drug rebate amount reported on the
Form CMS-64.9R for the quarter that ended June 30, 2002, (1) was overstated by $4.7 million
because this amount was not supported by the State agency’s records and (2) contained
approximately $570,000 in uncollected disputed items for the period January 1994 through
December 2001 that the State agency had not resolved. In addition, the State agency had not
established written procedures for reporting its pending drug rebate amounts on the Form CMS-
64.9R report. We recommended that the State agency (1) reconcile the State records to the
amount reported on the CMS-64.9R and make a summary adjustment to account for the
overstated amount, (2) resolve disputed items either through the CMS hearing mechanism or the
National Dispute Resolution conference, and (3) establish written procedures for recording drug
rebate transactions.

The State agency agreed with our findings and recommendations.

Rhode Island Drug Rebate Program

Since January 1, 1995, the State agency has contracted with its fiscal agent, Electronic Data
Systems, to perform all drug rebate program functions other than preparing and submitting the
Form CMS-64.9R. The fiscal agent’s responsibilities include preparing and mailing invoices to
manufacturers, receiving and posting payments, resolving disputes, and accounting for rebates on

2
 “Multistate Review of Medicaid Drug Rebate Programs” (A-06-03-00048), issued July 6, 2005; Arizona was not
included because it did not operate a drug rebate program.



                                                      2

single source drugs administered by physicians. The fiscal agent also converts the procedure
code billing units into equivalent NDC billing units.

For the fiscal year ending June 30, 2006, the State agency reported rebate billings of
approximately $36.9 million and collections of approximately $49.3 million on its Forms CMS-
64.9R.

This current review of the Rhode Island drug rebate program is part of a nationwide series of
reviews conducted to determine whether States have addressed the weaknesses found in the
previous reviews in accountability for and internal controls over their drug rebate programs.
Additionally, because the DRA required States as of January 2006 to begin collecting rebates on
single source drugs administered by physicians, this series of reviews will also determine
whether States have complied with the new requirement.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the Rhode Island drug rebate program
and (2) established controls over collecting rebates on single source drugs administered
by physicians.

Scope

We reviewed the State agency’s current policies, procedures, and controls over the drug rebate
program and the accounts receivable data that it reported on Form CMS-64.9R as of June 30,
2006.

We conducted our fieldwork at the State agency in Cranston, Rhode Island, and Electronic Data
Systems in Warwick, Rhode Island, from July through September 2008.

Methodology

To accomplish our objectives, we:

   •	 reviewed section 1927 of the Act, section 6002(a) of the DRA, CMS guidance issued to
      State Medicaid directors, and other information pertaining to the Medicaid drug rebate
      program;

   •	 reviewed the policies and procedures related to the fiscal agent’s drug rebate accounts
      receivable system;

   •	 reviewed the previous Office of Inspector General audit report on the drug rebate 

      program in Rhode Island; 





                                                3

   •	 interviewed State agency officials and fiscal agent staff to determine the policies, 

      procedures, and controls that related to the Medicaid drug rebate program;


   •	 reviewed copies of Form CMS-64.9R for the period July 1, 2005, through June 30, 2006;

   •	 reviewed supporting documentation for rebates invoiced, adjustments, and rebates
      collected for the four quarters that ended June 30, 2006 (July 1, 2005, through June 30,
      2006); and

   •	 interviewed fiscal agent staff to determine the processes used in (1) resolving claims
      disputed by the drug manufacturers and (2) converting physician services claims data into
      drug rebate data related to single source drugs administered by physicians.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusion based on our audit objectives.

                            FINDING AND RECOMMENDATION

The State agency had adjusted its CMS-64.9R by $4.7 million and resolved nearly all
outstanding disputed amounts for the period 1994 through 2001. However, the State agency had
not fully implemented the recommendation from our prior audit to establish written procedures
for recording drug rebate transactions.

Regarding the second objective, the State agency had established controls over collecting rebates
on single source drugs administered by physicians.

IMPLEMENTATION OF PRIOR RECOMMENDATIONS

In our prior audit of the Rhode Island drug rebate program, we determined that the State agency
had overstated its total uncollected drug rebate amount by $4.7 million, had not resolved claims
disputed by drug manufacturers, and had not established written procedures for recording drug
rebate transactions.

Federal regulations at 45 CFR § 92.20(a) require that “ . . . Fiscal control and accounting
procedures of the State . . . must be sufficient to . . . establish that such [Medicaid] funds have
not been used in violation of the restrictions and prohibitions of applicable statutes.”

Our current review found that the State agency had adjusted its CMS-64.9R by $4.7 million and
that, as a result, the total uncollected drug rebate amount reported on the CMS-64.9R reconciled
to the State agency’s records. In addition, the State agency, through its own resolution process,
had successfully resolved nearly all disputed items as of June 30, 2006, and had resolved all
items by the end of our fieldwork.



                                                  4

However, the State agency had not developed adequate written procedures for recording drug
rebate transactions, as we had recommended and as Federal regulations require. Specifically, the
State agency produced a document with six bullet points of one sentence each, entitled
“Procedures to Record, Reconcile and Report Drug Rebates.” However, four of these bullets
were for functions performed by the State agency’s fiscal agent, who maintains its own
procedures. The remaining two bullets did not comprehensively describe the State agency’s
procedures for recording drug rebate transactions.

PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS

The State agency had established controls over collecting rebates on single source drugs
administered by physicians, as the DRA requires. The State agency paid $458,490 in claims for
physician-administered drugs from January through June 2006 and billed manufacturers for
rebates totaling $81,833.

RECOMMENDATION

We reiterate our recommendation that the State agency establish written procedures for recording
drug rebate transactions.

DEPARTMENT OF HUMAN SERVICES COMMENTS

In written comments on our draft report, the State agency agreed with our recommendation.

The State agency’s comments are included in their entirety as the Appendix.




                                               5

APPENDIX

                                                                                                   APPENDIX
                         State oFRlwde Island and Providence Plantations




                       DEPARTMENT 01" HUMAN SERVICES
                                     Office of the Director




      F,~bmary 2,   2009



       Mr. Michael J. AttnSttt)11g
       Regional Inspector General for Audit Services
       Office of Inspector General
       Region I
       John F. Kennedy Federal Building
       Boston, MA 02203

       Re: Report Number: A-Ol-OS-00009

       Dear Mr. Armstrong:

       In response to your recommendation, the Rhode Island Department of Human
       Services, Office of Financial Management, is revising the written procedures relating
       to the recording of drug rebate transactions.

       Sinc~y,        _~
     cJ!i;r;f/Y \
  Aary D. Alexander \.
       Director

       Cc:     Ralph Racca
               Paula Avarista
               Robert Farley
               Richard Piscopiello




600 Nt'w Landon Avenue. Crans/oil, RJ. 029211 (401) 462-2121 - JDD: (401) 462-3363·· f,IX: (401) 462-3677
